SEP 18 2000


MEMORANDUM FOR:                     RAYMOND L. BRAMUCCI
                                    Assistant Secretary for
                                     Employment and Training

                                          /S/
FROM:                               JOHN J. GETEK
                                    Assistant Inspector General
                                      for Audit


SUBJECT:                            Puerto Rico Department of Labor and Human Resources Single Audit
                                    Recommendations Requiring Resolution and Closure
                                    Final Letter Report No. 02-00-218-03-325


This letter report completes the second stage of a two-stage effort to assist the Employment and
Training Administration resolve and close findings contained in seven Puerto Rico Department of Labor
and Human Resources (DLHR) single audit reports covering the years ending
June 30, 1986 through June 30, 1994. The first stage addressed the most critical recurring financial
weaknesses identified by single audits and the results were reported in Audit Report No. 02-00-203-
03-325, issued on December 8, 1999. This report addresses the remaining findings requiring resolution
and closure.

There were 208 open findings, many of which were repeated in several reports, with some appearing in
each of the seven reports. Audit Report No. 02-00-203-03-325 focused on material financial issues,
representing 45 of 208 open findings. Of the remaining 163 findings, there are 6
findings with questioned costs of $287,065 which should be resolved. These findings contain either
reportable conditions, material weaknesses1 or questioned costs in excess of $10,000. (See Schedule
A for details.)




         1
           Reportable conditions involve matters coming to our attention that represent significant deficiencies in
the design or operation of the internal control structure which could adversely affect the organization’s ability to
record, process, summarize, and report financial data consistent with the assertions of management in the financial
statements. A material weakness is a reportable condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level of risk that misstatements in amounts that
would be material in relation to the financial statements being audited may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions.
Accordingly, we are tracking only the findings of Report No. 02-0-203-03-325 and the nine findings of
this report. All other findings related to the DLHR single audits were removed from the OIG Audit
Resolution and Closure Tracking System.

We recommend that the Assistant Secretary for Employment and Training recover questioned costs of
$287,065. We also recommend that the Assistant Secretary ensure that in the future DLHR submits
and implements corrective action plans in accordance with OMB Circular A-133.

We have attached copies of applicable single audit reports for your use. If you have any questions
concerning this report, please contact Richard H. Brooks, Regional Inspector General for Audit at
(212) 337-2566.


Attachments


cc:    Honorable Aura L. Gonzalez Rios
       Mr. Charles N. Jeffress, OSHA
       Ms. Marilyn K. Shea, ETA Region II




                                                  -2-
                                                                                                 SCHEDULE A

                                PUERTO RICO DEPARTMENT
                             OF LABOR AND HUMAN RESOURCES
                                   OPEN AUDIT FINDINGS
                         FOR THE PERIOD JULY 1, 1985 TO JUNE 30, 1994


                                        Single Audit

                                    Page        Finding                                            Questioned
     Finding      Fiscal Year      Number       Number1         Program          Reason              Cost

       1         1988 & 1989          43           12          ES         Questioned Cost             $244,103

       2         1988 & 1989          44           13          ES         Questioned Cost               15,960

       3         1988 & 1989          45           15          ES         Questioned Cost               27,002

       4         1988 & 1989          41            9          Various    Reportable Condition              0

       5         1994              14,44,45        (*)         Various    Material Weakness                 0

       6         1994                 45           (*)         UI         Material Weakness                 0

                 Total                                                                                $287,065


(*) Single Audit Report did not identify finding by number.



Findings as Excerpted from Individual Single Audit Reports

1.         During the year ended June 30, 1989 the Department spent $1,104,551 in the acquisition
           of computer equipment to provide an on-line system between Job Service offices.
           Although it was an allowable cost, such expenditures were not included as part of the Job
           Service Plan for that year. The 10% limitation of the total approved budget was
           $860,448 and the Department’s personnel could not provide evidence of Grantor’s
           approval.

2.         One case was filed against the Department by . . . for political discrimination which was
           decided against it [sic]. The case involved an unjustified transfer of the plaintiff from
           one position to another which, although similar in responsibilities and compensation, was
           not welcome by the plaintiff since it was not as stable as her previous position. In her
           place, the Department placed an employee, . . . reportedly known as being an active
           member of the political party in office at the moment. The court resolved that . . . should
           be given her position.

                                                         -3-
3.   We found two payrolls from the Job Training Partnership Act (JTPA) program which
     were charged to Employment Services Program since JTPA did not have sufficient funds
     to cover them.

4.   The Department is obligated under a capital lease since February 1, 1980 for the building
     where the central administration offices are located. As of June 30, 1989, interest
     incurred in this capital lease amounted to $9,518,406.57. The Department has made an
     allocation of a portion of such interest expense to the federal programs. Authorization
     from the federal grantor agency for such allocation remains to be obtained.

5.   The management of the Department was unable to estimate the accrued compensated
     absences as of June 30, 1994. The balance recorded in the general long-term debt
     account group corresponds to the accrued compensated absences as of June 30, 1992.
     No adjustment was made to accrue in the accompanying financial statements
     compensated absences as of and for the year ended June 30, 1994. However,
     management believes that the adjustment would not be significant.

     . . .The accounting for compensated absences is not maintained in accordance with
     records of actual time taken and earned by the employees. The balance recorded in the
     general long-term debt account group corresponds to the accrued compensated absences
     as of June 30, 1992. No adjustment was made to accrue in the accompanying financial
     statements as of and for the year ended June 30, 1994.

6.   During the work performed in the Expendable Trust Fund, we noted that certain
     material adjustments and entries were made without any supporting documents or
     authorized approval. As for example, in the case of the adjustment made in the cash
     account of the Unemployment Trust Fund for $23,388,537 and a balance of due from
     unemployment in the Driver Trust Fund for $2,851,300 [sic].

     We recommend that all adjustments and entries made in the official accounting records
     of the Department be properly supported and approved by an authorize [sic] officer.




                                            -4-
               z       z       z       z       z         z     z       z       z

The audit was performed in accordance with the Government Auditing Standards. The audit was
limited to single audit findings and recommendations covering the period July 1, 1985 through June 30,
1994. We examined the OIG Audit Resolution and Closure Tracking System, single audits reports,
and the audit work performed in the first stage reported in Audit Report
No. 02-00-203-03-325.




                                                   -5-
